OIG Audit Report GR-30-02-003
Office of Community Oriented Policing Services
Grants to the American University
Washington, D.C.
Audit Report GR-30-02-003
January 28, 2002
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the American University Public Safety Department (grantee) in Washington, D.C.  The purpose of the grants is to enhance community policing.  The grantee was awarded a total of $723,195 to hire nine new police officers and to redeploy the equivalent of 8.2 existing full-time police officers from administrative duties to community policing.

We reviewed the grantee's compliance with seven essential grant conditions and found weaknesses in hiring officers, requesting reimbursements, and retaining officer positions.  As a result of the deficiencies identified below, we question $101,256 grant funds received. 1

The grantee did not increase its police force by the number of officers funded by the UHP hiring grant.  The grantee was not within the target level for 19 of the 36 months we reviewed.   Therefore we question $68,007 associated with the shortfall.

	The grantee charged unallowable and unsupported costs to the UHP ($1,419) and MORE 98 ($3,910) grants.
 
	The grantee did not retain the required UHP funded positions for which we question $27,920 associated with the shortfall.

	The reported amounts on the Financial Status Reports (FSR) for the hiring grants are inaccurate.  The weakness is not dollar-related.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 





Footnote

  The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.